United States Department of Agriculture
Office of Inspector General




Rural Utilities Service Controls Over
Recovery Act Water and Waste Loans and
Grants Expenditures and Performance
Measures




                                          Audit Report 09703-0001-22
                                          March 2013
                                     Rural Utilities Service Controls Over Recovery Act
                                    Water and Waste Loans and Grants Expenditures and
                                                    Performance Measures

What Were OIG’s                                      Audit Report 09703-0001-22
Objectives
We reviewed the effectiveness
of RUS’ Recovery-Act
specific performance measures
for WWD. We also reviewed
whether controls over WWD
expenditures were adequate to     OIG evaluated RUS’ Recovery Act
ensure RUS spent Recovery
Act funds as intended.            performance measures and controls over
                                  expenditures for WWD loans and grants to
What OIG Reviewed                 assess whether the agency used Recovery
To assess the performance         Act funds to achieve Recovery Act goals.
measures, we analyzed
whether the controls, as
designed, adequately              What OIG Found
evaluated achievements in
terms of outcomes, and            The Office of Inspector General (OIG) determined that Rural Utilities
whether controls were in place    Service (RUS) designed and implemented performance measures for
over the reporting of the         Water and Waste Disposal System (WWD) loans and grants that
measured achievements. To         effectively measured how RUS used Recovery Act funds to achieve
assess controls over              Recovery Act goals. We evaluated the performance goals, which
expenditures, we reviewed         aimed to, for instance, reduce rural people’s exposure to water-related
16 Recovery Act WWD               hazards, and to save or create 56,000 jobs. Based on our evaluation,
projects with obligations         we concluded that these goals adequately measured RUS’
totaling approximately            achievements in meeting both Recovery Act and WWD program
$124 million, and a sample of     objectives. We found that RUS had an effective system for gathering
30 projects from 11 borrowers     data specific to the reported measures and could reasonably ensure
with obligations totaling         reporting was proper.
$156.8 million.
                                  We also assessed controls over project expenditures and concluded
What OIG Recommends               that they were reasonably effective to ensure that RUS used Recovery
                                  Act funds to complete projects as intended. However, our review
RUS should develop guidance       disclosed that RUS needs to improve controls over grant funds
and train staff on how to close   remaining after projects are complete. Specifically, we identified a
obligations and conduct           borrower with multiple WWD projects that improperly transferred
unliquidated obligations          grant funding from one completed project to another project, which is
reviews. RUS should also          prohibited. This occurred due to weaknesses in controls for
develop tools to track inactive   deobligating funds remaining after projects are completed, and, also,
projects, and return              in part, because Rural Development does not currently track project
approximately $454,355 in         expenditures at the national level. The transferred $158,252 was part
inactive and improperly spent     of $454,355 in grant funding that remained inactive for a period of
funds to the Department of the    more than 2 years, while a backlog of other WWD projects waited for
Treasury.                         funding. RUS generally agreed with our recommendations and we
                                  accept management decision for all recommendations.
                            United States Department of Agriculture
                                    Office of Inspector General
                                     Washington, D.C. 20250


DATE:           March 26, 2013

AUDIT
NUMBER:         09703-0001-22


TO:             Dallas Tonsager
                Under Secretary
                Rural Development

                John Padalino
                Acting Administrator
                Rural Utilities Service

ATTN:           John Dunsmuir
                Acting Director
                Financial Management Division

FROM:           Gil H. Harden
                Assistant Inspector General for Audit

SUBJECT:        Rural Utilities Service Controls Over Recovery Act Water and Waste Loans and
                Grants Expenditures and Performance Measures


This report presents the results of our audit of the Department of Agriculture’s controls over
Recovery Act Water and Waste Loans and Grants expenditures and performance measures. Your
written response to the official draft report, dated March 14, 2013, is attached, with excerpts and the
Office of Inspector General’s (OIG) position incorporated into the Finding and Recommendation
sections of the report, where applicable. Based on your written response, we are accepting your
management decisions for all audit recommendations in the report, and no further response to this
office is necessary.

In accordance with Departmental Regulation 1720-1, final action needs to be taken within 1 year of
each management decision to prevent being listed in the Department’s annual Agency Financial
Report. Please follow your internal agency procedures in forwarding final action correspondence to
the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objectives ....................................................................................1
Section 1: Unliquidated Grant Funds ...................................................................3
   Finding 1: RUS Needs to Improve Controls Over Unliquidated Grant
   Funds......................................................................................................................3
         Recommendation 1 ........................................................................................5
         Recommendation 2 ........................................................................................6
         Recommendation 3 ........................................................................................6
Scope and Methodology ...........................................................................................7
Abbreviations .........................................................................................................10
Exhibit A: Summary of Monetary Results .........................................................11
Exhibit B: Recovery Act Water and Waste Disposal Projects Reviewed........12
Exhibit C: Review of Borrowers With Multiple Recovery Act Projects .........13
Agency’s Response .................................................................................................15
Background and Objectives 

Background
The American Recovery and Reinvestment Act of 2009 (Recovery Act) aimed to promote
economic recovery, assist those most impacted by the recession, provide investments in science
and health, invest in infrastructure with long-term benefits, and stabilize State and local
government budgets. Congress, as a part of the Recovery Act, designated $2.8 billion in loan
funds and $968 million in grant funds for the Water and Waste Disposal System (WWD) Loan
and Grants Program.1 Rural Utilities Service (RUS), a component agency within the Department
of Agriculture’s (USDA) Rural Development agency, administers the WWD program to improve
the quality of life and promote economic development in rural America.

The WWD program provides direct loans and grants for water, sewer, storm water, and solid
waste disposal systems in rural cities and towns having a population up to 10,000 people. Loan
and grant funds may be used to construct, enlarge, or otherwise improve rural water, sanitary
sewage, solid waste disposal, and storm wastewater disposal facilities. Through 47 Rural
Development State offices, as well as area and local offices, RUS obligated $3.3 billion in
Recovery Act loans and grants during fiscal years (FY) 2009 and 2010. The loans and grants
provide funding to 740 borrowers for 834 projects throughout the United States.2

Public entities may apply for WWD loan and grant funds. For instance, the Board of
Commissioners in Allegheny County, Maryland, applied to fund the construction of new water
lines, meters, and fire hydrants to serve 150 people in the county. In September 2007, RUS
obligated $1,556,000 in grant funds and $600,000 in loan funds for that project. Construction
started in November 2008 and was completed by June of 2010.

RUS may work with public entities on multiple projects. For instance, in September 2009, RUS
funded another Allegheny County Board of Commissioners’ project. This project, which served
110 people, included 14,800 feet of water pipe, a water pumping station, and other features, as
well as added fire hydrants. RUS obligated $1,267,000 in grant funds and $624,000 in loan
funds from the Recovery Act appropriation for this project.

Following the passage of the Recovery Act, Rural Development developed an implementation
plan to address how it would meet the Recovery Act goals, and updated the plan in May 2010. 3




1
  Rural Development’s updated Implementation Plan (May 2010) anticipated the actual obligation of funds would be
around $3.3 billion due to a change in the subsidy rate between FYs 2009 and 2010 and reprogrammed loan
amounts to grants.
2
  The scope of our review included 833 projects. We reduced our universe since one project was a technical
assistance grant and not included in the scope of our review.
3
  USDA Rural Development American Recovery and Reinvestment Act Implementation Plan, dated May 9, 2009
(updated May 15, 2010).

                                                                AUDIT REPORT 09703-0001-22                    1
In its plan, RUS set the following performance measures for the program:4

    ·    Achieve 1.9 million customers receiving new or improved service;
    ·    Reduce by 6 percent rural people’s exposure to water-related health and safety hazards
         (based on projects funded that will remove an identified health and safety hazard);
    ·    Allocate ten percent of project funding for investment in persistent poverty counties; and
    ·    Save or create 56,000 jobs.

In its Implementation Plan, Rural Development notes that Recovery Act funding will be
provided to eligible applicants under the existing WWD Loan and Grant program regulations.
Rural Development also used the first of the four performance measures shown above to gauge
the results of regular program operations. Rural Development added the other performance
measures to be consistent with Recovery Act requirements.

Reviews of Recovery Act WWD Loans and Grants

Congress, in enacting the Recovery Act, emphasized the need for accountability and
transparency in the expenditure of funds and provided $22.5 million to the Office of Inspector
General (OIG) for oversight and audit of USDA programs, grants, and activities funded by the
Act.

OIG has completed two phases of audit work for RUS’ WWD program, issuing three fast reports
and two audit reports.5 OIG’s Phase I audit identified two instances where RUS officials could
enhance agency procedures for approving WWD loans and grants and target communities with
the greatest need when allocating funds. Phase II disclosed that RUS should ensure the
transparency and accountability requirements under the Recovery Act were followed, and
reported an incident where a State office inappropriately funded a borrower’s current project
with unused funds from a previous project, as such funding conflicted with program
requirements. In both of those audits, OIG made recommendations to the program to address the
issues previously outlined. RUS agreed to our recommendations and has taken steps to address
the issues.

Objectives
We initiated this audit to determine whether RUS developed and implemented performance
measures for WWD loans and grants that effectively measure how RUS used those funds to
achieve Recovery Act goals. Also, we sought to determine whether controls over WWD
Recovery Act expenditures were adequate to ensure RUS spent Recovery Act funds as intended.




4
  These performance measures were initially shown in the RUS 2009 implementation plan and were updated in 2010
to more accurately reflect 2010 funding changes.
5
  Report 09601-0001-At was issued in 2010, while the phase II report (09703-0001-At) was issued in 2012.

2       AUDIT REPORT 09703-0001-22
Section 1: Unliquidated Grant Funds

Finding 1: RUS Needs to Improve Controls Over Unliquidated Grant Funds
A State Rural Development office did not deobligate remaining grant funds upon completion of a
project and did not cancel the unliquidated funds for almost 2 years. Instead, the State office
used those funds on a Recovery Act project obligated to the same borrower. This is similar to an
issue reported in a previous audit.6 In that instance, we found that rather than deobligating
unliquidated grant funds from a completed project, a State Rural Development office
inappropriately funded a Recovery Act project with funds remaining from the former project.
Both of these issues occurred due to misunderstandings by State officials regarding borrowers
with multiple or phased WWD projects, and weaknesses in Rural Development’s controls for
monitoring and deobligating unliquidated grant funds. Because State officials considered two
separate projects as a multi-phase project, in this instance, the agency improperly transferred
$158,252 from one project to another and a total of $454,355 in grant funding remained inactive
for a period of more than 2 years, while a backlog of other WWD projects waited for funding.

RUS regulations state that funds not needed to complete a project are to be deobligated.7 Those
regulations also state that all grant funds remaining after a project has been completed should be
cancelled8 and returned to the Department of the Treasury.9 Additionally, USDA regulations
state that obligations with no activity for the most recent 12 months should be deobligated,
unless there is a documented justification for the period of inactivity. Departmental regulations
also require agencies to perform reviews of unliquidated obligations to properly report obligation
balances, make funds available that otherwise would not be used, reduce the risk of misuse and
theft of funds, and improve the Department of the Treasury’s ability to forecast outlay and
borrowing needs.10 In addition, Federal statutes require that fixed-appropriation loan and grant
accounts shall be closed after 5 years, and any remaining balance in the account shall be
canceled and no longer available for any purpose.11

To assess controls over project expenditures where borrowers had multiple projects, OIG
reviewed a sample of 11 borrowers and 30 projects, including a $1,267,000 grant and
$624,000 loan made to the Board of Commissioners in Allegheny County, Maryland (the
borrower). The loan and grant were part of a larger project called “Bowman’s Addition.” Rural
Development and the borrower split the Bowman’s Addition project into separate projects that
could be completed independently. Rural Development obligated funding for the project called
“Phase I” from the regular appropriation, prior to the announcement of Recovery Act funding.
“Phase II” was obligated from Recovery Act money.


6
  Audit report 09703-0001-At, Rural Utilities Service’s Controls over Water and Waste Disposal Loan and Grant
Program for the Recovery Act (July 2012).
7
  7 Code of Federal Regulations (CFR) 1780.44(e).
8
  7 CFR 1780.45(f).
9
  Office of Management and Budget Circular A-11.
10
   USDA Departmental Regulation 2230-001 – Reviews of Unliquidated Obligations 3.d. April 21, 2009.
11
   Title 31, Subtitle II, Chapter 15, Subchapter IV - USC 1552 (a) Procedures for appropriation accounts available
for definite periods. January 3, 2012.

                                                                   AUDIT REPORT 09703-0001-22                        3
When the first project was completed in 2010, there was an unliquidated obligation of grant
funds in the amount of $454,355. Although RUS regulations require that obligated loan or grant
funds not needed to complete the proposed project will be deobligated,12 this did not occur. In
July 2012, Rural Development officials identified the $454,355 remaining from the first project
when conducting reviews of obligations nearing the 5-year deadline for deobligation. Our
review identified that when the borrower was notified of the upcoming deobligation of those
remaining funds more than 2 years later, the borrower requested and received approval to use
$158,252 of those funds to pay for work completed on the Phase II project.13 On February 13,
2013, Rural Development notified OIG that the $296,113 of grant funds in the Phase I account
had been deobligated. Rural Development also indicated that the remaining balance will be
deobligated by the end of March 2013.

Rural Development State officials reported that they authorized the use of grant funds remaining
from the Phase I project for the Phase II project because the use was within the original scope of
the overall project, as the underwriting and application was combined for both phases. However,
given the separate funding obligations, the time interval between the obligations, the separate
project budgets and contracts, and the different project scopes, the projects should have been
regarded as separate. While RUS regulations allow for limited use of remaining funds within a
project,14 they do not allow for the transfer of funds across projects.

RUS regulations regarding the deobligation of funds require that loan and grant funds should be
canceled if they are not needed. However, the regulations do not specify when projects are
deemed to be complete nor how soon after completion any remaining funds should be canceled.
The lack of a stated timeframe allows State and area officials to hold a project’s unliquidated
funds at completion inactive for a period up to the 5-year deobligation mark, which delays the
redistribution of funding to other projects in need. RUS should develop clearer guidance, so that
State and area offices ensure a project that has reached completion is reviewed so that any
unliquidated obligations are identified and redistributed to borrowers waiting for funding. To
further emphasize the importance of making unliquidated obligations from completed projects
available to others, we recommend that RUS conduct training with the staff who service WWD
projects in order to ensure that they fully understand the guidance provided, can conduct the
necessary reviews of unliquidated obligations, and make decisions on when funding should be
deobligated, based on project completion. This would also allow RUS to ensure that a project’s
unliquidated obligations become available to others more quickly, rather than remaining inactive
or being transferred to projects that already have fully-funded budgets.

Reviews of inactive grant funding can help to reveal if funds need to be released for use
elsewhere. Rural Development officials acknowledged that the agency does not currently track
project expenditures at the national level because the projects are serviced by the area offices.


12
   RUS instruction 1780.44(e).
13
   RUS regulations also account for situations where additional funding is needed to complete a project. If the
project were considered one large project and ran out of money, the borrower could apply for a cost overrun which
is given priority in funding.
14
   Any funds remaining after all costs incident to a project have been paid or provided for can be used for eligible
loan and grant purposes, provided the use will not result in major changes to the facility and the purpose of the loan
and grant remains the same. RUS instruction 1780.45(f).

4     AUDIT REPORT 09703-0001-22
However, an expenditure tracking tool could help Rural Development to detect funds that remain
inactive after projects are completed, and would also allow Rural Development to identify trends
in expenditures. If RUS were tracking project expenditures at the national office level, it is
likely that officials would have seen that this project was inactive since June of 2010 and could
have initiated a review prior to July 2012 on whether the remaining funds were still needed for
the project.

RUS national officials stated that they have stepped up their efforts to make sure that obligations
do not exceed 5 years without good reason by contacting State and area offices as unliquidated
obligations reach that milestone to request a review of those funds. As a result, State and area
officials were focused on ensuring that the Bowman’s Addition project’s unliquidated
obligations be expended before they expired. Although the national officials’ emphasis on
meeting the 5-year deobligation mark encourages State officials to perform reviews of
unliquidated obligations, it does not encourage those reviews to be conducted at any point prior
to the potential expiration of the obligation.

Given that Rural Development currently has a backlog of projects waiting for funding, timely
identification of inactive funds eligible for deobligation is crucial. By enhancing its project
closeout procedures and monitoring of grant expenditures, Rural Development could strengthen
its ability to fund a greater number of WWD projects timely.

Recommendation 1
Develop additional guidance and train staff on RUS definitions for projects, how to close
obligations, and how to conduct unliquidated obligation reviews.

Agency Response
In its March 14, 2013, response RUS stated that they have and will continue to provide training
regarding the use of remaining funds and the handling of unliquidated obligations. They also agreed
to update their guidance and distribute that guidance to all national office and field staff. In a
separate correspondence, RUS provided a completion date for these corrective actions of March 1,
2014.

OIG Position
We accept RUS’ management decision for this recommendation.




                                                         AUDIT REPORT 09703-0001-22               5
Recommendation 2
Develop an expenditure tracking tool at the national office level that would allow RUS to better
monitor projects that are inactive.

Agency Response
In its March 14, 2013, response RUS stated that they will develop the recommended tracking
tool as funding permits to modify the Community Programs Application Process, the agency’s
loan processing system. In a separate correspondence, RUS provided a completion date for this
corrective action of March 1, 2014.

OIG Position
We accept RUS’ management decision for this recommendation.

Recommendation 3
Recover or deobligate the $454,355 in grant funding remaining at the completion of Phase I and
return to the Department of the Treasury.

Agency Response
In its March 14, 2013, response RUS stated that although they are of the opinion that the
underwriting for the Bowman’s Addition Project complies with the regulation, RUS will
deobligate the grant funds as recommended. RUS notified OIG of a partial deobligation in the
amount of $296,113 on February 13, 2013. The additional remaining funds will be deobligated
by the end of March 2013.

OIG Position
We accept RUS’ management decision for this recommendation.




6    AUDIT REPORT 09703-0001-22
Scope and Methodology
Under the Recovery Act, RUS was allocated $3.8 billion to fund WWD loans and grants in
FYs 2009 and 2010. RUS obligated $3.3 billion of the Recovery Act funding to 834 WWD
projects.15 Our audit work focused on whether RUS accurately presented the results of
Recovery Act funding, whether those measures were effective in addressing the primary goals of
the Recovery Act, and whether controls over project expenditures were sufficient. We
completed fieldwork at RUS’ national office in Washington, D.C., from May to December 2012.
We requested project files and supporting information from and contacted officials at State and
area offices throughout the audit, but did not conduct site visits.

RUS provided us with the universe listing of 834 WWD projects funded by the Recovery Act.
The listing included project name, description, location, area office, loan and grant amounts
obligated and advanced, date of obligation, phase of project, estimated completion date, and
percent complete. We removed one project from the audit universe, as it was a technical
assistance grant and was not included in the scope of our review. To test data reliability of the
universe listing, OIG’s Data Analysis and Special Projects group recreated the query RUS
utilized to extract the universe from Rural Development’s data warehouse. Based on the review
of this recreation, we concluded that the universe listing contained all WWD projects funded
under the Recovery Act.

To test whether adequate controls were in place to ensure that Recovery Act funds were properly
expended, we attempted to select a statistical sample of WWD project expenditures. However,
we were unable to select a statistical sample using project expenditures as criteria because RUS’
financial systems do not provide a complete accounting of project expenditure data. This is
primarily due to the fact that RUS financial systems only track expenditures at the time they are
paid by the Department of the Treasury. Given that this can be done either as they are incurred
or as a lump payment to an interim financier, there are times when the amount reported as an
expenditure by the financial system indicates that a project has zero expenditures because the
Department of the Treasury has made no payment, but the interim financier may in fact have
made payments that will be reimbursed by the Department of the Treasury at the time the loan
closes. RUS relies on its area offices to maintain records of funds expended and to review those
expenditures. Our efforts were further hampered by RUS’ national and State offices not
maintaining a record of expenditures for each project in the program. We attempted to pull the
expenditure information from another database, but found that source to be unreliable.

As a result, we changed our audit methodology to focus on those expenditures incurred in
projects selected during our Phase II audit.16 Projects in the Phase II sample were statistically
selected using obligations as of the end of FY 2009 as criteria. During that phase, we reviewed
the procedures for processing project expenditures, payments, and the area offices’ oversight of


15
   Rural Development’s updated Implementation Plan (May 2010) anticipated the actual obligation of funds would
be around $3.3 billion due to a change in the subsidy rate between FYs 2009 and 2010 and reprogrammed loan
amounts to grants.
16
   During Phase II, we visited area offices, reviewed the project files for eligibility, and evaluated the internal control
structure over project expenditures.

                                                                      AUDIT REPORT 09703-0001-22                         7
these processes and, based on those reviews, we assessed the control risk over expenditures as
low. However, we were unable to test a sufficient amount of project expenditures during
Phase II, given that many projects in the sample had no expenditures at the time we were
conducting fieldwork.

The sample selected included 22 projects from 17 States, with obligations of approximately
$184.2 million. From this sample of projects, one project was not reviewed, due to an ongoing
investigation by OIG’s Office of Investigations, while two others were deobligated and had no
expenditures to test. After reviewing 16 of the remaining 19 projects, we terminated expenditure
testing, as those projects reviewed contained few errors and those errors did not indicate
systematic control weaknesses. The 16 projects we did review were located in 12 States and
represented obligations totaling approximately $124 million (see exhibit B).

To further maximize our review of project expenditures, we reviewed Recovery Act borrowers
with multiple projects to ensure unliquidated obligations from one project were not used as
reserves for subsequent projects. Using data from Rural Development’s data warehouse, we
identified a universe of 55 borrowers with 121 different WWD projects. We reduced the
universe of borrowers by removing:

    ·    Projects from the State of Maine, since these projects were reviewed by RUS during the
         management decision process for the Phase II report;
    ·    Borrowers with two projects where the dates of fund obligation were less than 60 days
         apart; and
    ·    Projects identified as cost overruns from a prior project. RUS allows this use of funds
         when a project utilizes all RUS funding before completion.

This reduction narrowed the universe to 11 borrowers with 30 projects in 9 States (see
exhibit C). Total obligations for these projects were $156.8 million in Recovery Act funds. For
each project, we reviewed general project information, expense summaries, underwriting
documents from RUS’ application processing system, and source documentation for other
project funds received to determine whether RUS’ controls prevented the transfer and use of
unexpended grant funds to subsequent projects.

Finally, when testing controls over and the accuracy of performance reporting, we obtained
source data from Rural Development’s data warehouse on the accomplishments reported for the
four performance measures reviewed. The data included each projects’ area population, number
of economic dwelling units, number of estimated jobs created or retained, whether the project
addressed a water-related health or sanitary issue, and whether it was located in a persistent
poverty county. We interviewed RUS officials about how the performance measures were
computed and then re-calculated them to ensure accuracy and completeness. Additionally, for
the projects in our sample selection for expenditure testing, we compared the accomplishments
documented in the project file to the information from the data warehouse.




8       AUDIT REPORT 09703-0001-22
To accomplish our audit objectives we:

   ·   Reviewed regulations, policies, procedures, and other guidance concerning the
       administration of the WWD loan and grant program, as well as the Recovery Act;
   ·   Examined internal reports on internal control weaknesses and external audit reports
       related to the WWD program;
   ·   Gained an understanding of Rural Development’s computer information systems that
       Rural Development utilized for RUS WWD projects and reviewed the internal controls
       over those systems;
   ·   Interviewed RUS national officials to identify the WWD performance measures
       implemented for the Recovery Act, determine how those measures were selected, their
       effectiveness in addressing Recovery Act goals, whether they were outcome or output
       based, and how they were calculated;
   ·   Evaluated the control structure over the performance measure reporting process;
   ·   Analyzed the performance measures and supporting data to determine whether they were
       accurately calculated and reported;
   ·   Examined 16 WWD loan and grant files for expenditure testing; and
   ·   Reviewed 30 projects from 11 borrowers to identify any inappropriate rollover of
       unexpended grant funds to other projects.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




                                                        AUDIT REPORT 09703-0001-22                9
Abbreviations
CFR ............................. Code of Federal Regulations
FY ............................... Fiscal Year
OIG ............................. Office of Inspector General
Recovery Act .............. American Recovery and Reinvestment Act of 2009
RUS ............................. Rural Utilities Service
USDA.......................... Department of Agriculture
WWD .......................... Water and Waste Disposal




10    AUDIT REPORT 09703-0001-22
Exhibit A: Summary of Monetary Results


 Finding   Recommendation           Description             Amount             Category

                                Unliquidated Grant
                                                                            Funds to be Put
    1               3           Funds Remaining At               $454,355
                                                                            to Better Use
                                Project Completion
 TOTAL                                                           $454,355
The table above contains columns to identify the finding number, recommendation number,
description of error, program dollar amount impacted, and OIG management tracking
classification associated with the monetary results from the report’s findings.




                                                   AUDIT REPORT 09703-0001-22             11
Exhibit B: Recovery Act Water and Waste Disposal Projects
Reviewed
Projects OIG reviewed when assessing RUS’ controls over Recovery Act expenditures.

                                                               Obligated     Obligated      Total
         Borrower               Project Name           State    Loan          Grant        Amount
                                                               Amount        Amount       Obligated17
 Dubois, City of                City of Dubois          ID      $675,000      $289,000      $964,000
 Montezuma, Town                Initial Sewage
                                                        IN       4,788,000     754,000      5,542,000
 of                               Collection
 Twin Lakes
 Regional Sewer                     Phase 4             IN       9,067,000    7,642,000    16,709,000
 District
 Garrison-Quincy-
                                Garrison Sewer
 KY-O-Heights W.                                       KY         798,000      429,500      1,227,500
                                    Project
 D.
 Jonesville, Town of           Jonesville Water        LA         205,000             -       205,000
 Farmington, Town               2009 Tannery
                                                       ME         131,000      370,000        501,000
 of                                 Brook
                                    Sewer
 Hancock, City of                                       MI       2,092,000    1,908,000     4,000,000
                                Improvements
 Atchison County
                               Water Treatment
 Wholesale Water                                       MO       12,000,000   10,000,000    22,000,000
                                  Facility
 Commission
 Clara Water                   2008 Distribution
                                                       MS         555,800                     555,800
 Association, Inc.                 System
 Mt. Comfort Water
                                Water FY2009           MS         942,000      682,000      1,624,000
 Association, Inc.
 North Central Rural
 Water Consortium               Radar Hill Area        ND        3,019,900                  3,019,900
 II
 Netarts Oceanside               Wastewater
                                                       OR       10,047,000    7,579,000    17,626,000
 Sanitary District                Treatment
                                 Water System
 Hood River, City of                                   OR       13,099,000    9,877,300    22,976,300
                                   Pipeline
 Shelton, City of               Sewer -WWTP            WA       20,379,000    4,734,750    25,113,750
                                 Wiggins and
 Big Bend PSD                                          WV         505,000     1,295,000     1,800,000
                                  Browning
                                Phase III Water
 War, City of                                          WV                      180,300        180,300
                                   System
 TOTALS                                                        $78,303,700 $45,740,850 $124,044,550

17
     Amounts obligated are as of September 30, 2010.

12        AUDIT REPORT 09703-0001-22
Exhibit C: Review of Borrowers With Multiple Recovery Act
Projects
Projects OIG reviewed to determine whether RUS had controls to prevent the inappropriate
rollover of unexpended grant funds between projects with the same borrower.
                                                  Loan           Grant
                                                                                 Total
 Borrower     State       Project Name           Amount         Amount
                                                                               Obligations
                                                 Obligated      Obligated
                          Johnsons Corner
     1         DE                                 $2,000,000     $1,570,000      $3,570,000
                              Sanitary
                           Woodlands of
                         Millsboro Sanitary           90,000        566,000         656,000
                           Sewer District
                          Pump Station 30          6,169,000                       6,169,000
                            Oak Orchard
                                                   5,582,000      2,999,847        8,581,847
                             Expansion
                       Inland Bays Regional       10,475,000                     10,475,000

     2         IL            Phase II             $1,535,000       $477,000      $2,012,000
                             Phase III             1,300,000      1,458,000       2,758,000

     3        MD       Bowman’s Addition            $624,000     $1,267,000      $1,891,000
                       Mt. Savage-Jennings         4,260,000                      4,260,000

                      Airport Road Extension
     4        NY                                    $839,000       $381,993      $1,220,993
                                1
                          Kingdom Road
                                                     620,000        325,516         945,516
                           Extension 1
                            CR 176/45                449,000        339,483          788,483
                            Silk Road                630,000        457,866        1,087,866

                       PRASA 163- Villa
     5         PR                                 $6,031,000     $2,961,000      $8,992,000
                        Taina/Boqueron
                         PRASA 165-
                                                   3,364,000        769,000        4,133,000
                      Aguadilla/Vista Verde

     6         SC      Phase II and III S         $2,088,000                     $2,088,000
                         Phase I, Water
                                                   2,830,000      2,571,000        5,401,000
                           Extension
                       Orangeburg/Vance
                                                     820,000        632,400        1,452,400
                      Water Main Extension

     7         SC            Phase II             $4,161,300                     $4,161,300
                           Beulah Road               298,000        278,300         576,300

                                                    AUDIT REPORT 09703-0001-22             13
                                              Loan          Grant
                                                                           Total
Borrower   State      Project Name           Amount        Amount
                                                                         Obligations
                                             Obligated     Obligated
     8      SD     2009 Re-lining Project      $352,000      $220,278       $572,278
                     2010 Water Rehab
                                               1,019,000      915,000       1,934,000
                          Project

     9      VA     Upper Norton Reserve       $2,160,000    $1,000,000     $3,160,000
                   Wastewater System R         1,297,000     3,889,000      5,186,000

     10     VA        Exit 13 Sewer           $1,579,000    $1,000,000     $2,579,000
                     Small Water Line
                                              10,000,000                   10,000,000
                   Replacement – Phase I
                   Water Treatment Plant      26,580,000                   26,580,000
                     Whites Mill Road          3,000,000                    3,000,000

     11     WA  Sewer – WWTP                 $20,379,000    $4,734,750    $25,113,750
                  Basin 5 I & I
                                               7,546,000                    7,546,000
                 Improvements
TOTAL OBLIGATIONS                           $128,077,300   $28,813,432   $156,890,733




14    AUDIT REPORT 09703-0001-22
Agency’s Response




                  USDA’S
         RURAL UTILITIES SERVICE’S
         RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 09703-0001-22   15
                                          United States Department of Agriculture
                                                    Rural Development




March 14, 2013


TO:                 Gil Harden
                    Assistant Inspector General for Audit

THROUGH: John Charles Padalino /s/ John Padalino
         Acting Administrator
         Rural Utilities Service

FROM:               Dallas Tonsager /s/ Doug O’Brien for Dallas Tonsager
                    Under Secretary
                    Rural Development

SUBJECT:            Rural Utilities Service Controls Over Recovery Act Water and Waste
                    Loans and Grants Expenditures and Performance Measures
                    09703-0001-22


Thank you for your Draft Report dated February 13, 2013 regarding your oversight
activities related to the water and waste disposal system program implementation of the
funding received through the American Recovery and Reinvestment Act of 2009, P.L.
111-5, (Recovery Act). We are pleased that the Report found that RUS designed and
implemented performance measures for WWD loans and grants that effectively measured
how RUS used Recovery Act funds to achieve Recovery Act goals. Further we are pleased
that OIG found that controls over project expenditures were reasonably effective to ensure
that RUS used Recovery Act funds to complete projects as intended.

We recognize that the report includes one finding regarding the use of remaining grant
funding in one project in Delaware. This memorandum will serve as our reply to your
recommendations related to that finding.

In the finding, OIG asserts that RUS identified a borrower with multiple Water and Waste
Disposal projects that improperly transferred grant funding from one completed project to
another project, which is prohibited. The report likens this situation to the one instance in a
prior OIG ARRA Report regarding an improper roll-over of funds to a project in Maine. As
noted in the current OIG report, the Agency does not agree that the situations are alike, but
that in this case, the underwriting is such that it complies with the regulation.



                                 1400 Independence Ave., S.W. Washington, DC 20250-0700
                                             Web: http://www.rurdev.usda.gov

                                          Committed to the future of rural communities.

                                    “USDA is an equal opportunity provider, employer and lender.”
        To file a complaint of discrimination write USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
                       Washington, DC 20250-9410 or call (800)795-3272 (voice) or (202) 720-6382 (TDD).
In this case, the project, although subsequent obligations are labeled by phase, is considered a
single project, with multiple obligations related to on underwriting and one applicant.
Neither the regulation nor the statute prohibits the obligation of subsequent loans to complete
a project. However, the project ultimately benefited from the competitive bidding
environment, coming in under budget and eliminating the need for the funds.

Recommendation 1
Develop additional guidance and train staff on RUS definitions for projects, how to close
obligations, and the proper way to conduct unliquidated obligation reviews.

Agency Response
The agency has, and will continue to provide training regarding the use of remaining funds
and the handling of unliquidated obligations. We will update our guidance and distribute that
guidance to all national office and field staff.


Recommendation 2
Develop an expenditure tracking tool at the national office level that would allow RUS to
better monitor projects that are inactive.

Agency Response
The Agency will develop the recommended tracking tool as funding permits to modify
CPAP, the Agency’s loan processing system.

Recommendation 3
Recover or deobligate the $454,355 in grant funding remaining at the completion of Phase I
and return to the Department of the Treasury.

Agency Response
Although the Agency is of the opinion that the underwriting for the Bowman’s Addition
Project (applicant: Allegany County Commissioners) complies with the regulation, the
Agency will deobligate the grant funds as recommended. Please note that on February
13, 2013 the Agency notified OIG of a deobligation on February 11, 2013 of $296,113.16
from the Allegany County Commissioners project. Additional funds will be deobligated
in March.


Conclusion
Rural Development is committed to administering the Water and Waste Disposal Loan
and Grant Program effectively and to ensure that funds are appropriately utilized pursuant
to statute and regulation. Again, we are pleased with your general finding that our
internal controls are adequately designed and operating. We will work to obtain funding
for the tracking tool, deobligate the recommended funds and enhance our staff guidance
as necessary to improve delivery of the program.
Information copies of this report have been distributed to:

Administrator, Rural Utilities Service
      ATTN: Agency Liaison Officer
Government Accountability Office
Office of Management and Budget
Office of the Chief Financial Officer
       ATTN: Director, Planning and Accountability Division
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
